U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 9, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Dominique Mack v. United States of America,
S.Ct. No. 20-5407

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 20,
2020, and placed on the docket on August 19, 2020. The government’s response is due on
September 18, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 19, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5407
MACK, DOMINIQUE
USA

JEREMIAH DONOVAN
123 ELM STREET
UNIT 400
PO BOX 554
OLD SAYBROOK, CT 06475
860-388-3750
JEREMIAH_DONOVAN@SBCGLOBAL.NET
860-388-3181(Fax)

